RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 19-277
HSBC Holdings PLC, et al.,
Petitioners,
v.
Irving H. Picard,
Respondent.
As required by Supreme Court Rule 33.1(h), I, Richard D. Klingler, certify
that the Brief of the Cayman Islands Government and the Government of the
Virgin Islands as Amici Curiae in Support of Petitioners in the foregoing case
contains 5,881 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 30, 2019.
/s/ Richard D. Klingler
RICHARD D. KLINGLER
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, DC 20005
(202) 736-8000

